No.

IN THE
SUPREME COURT OF THE UNITED STATES

NOLAN C. TURNER III — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
RESPONDENT

Appendices

(Oam rf of fi]B js>fair of '^Loumana

V*

STATE OF LOUISIANA
NO.2020-KH-00047
VS.
NOLAN C. TURNER, III

IN RE: Nolan C. Turner, III - Applicant Defendant; Applying For Supervisory Writ,
Parish of Caddo, 1st Judicial District Court Number(s) 203,173, Court of Appeal,
Second Circuit, Number(s) 53,381-KH;

September 29, 2020

Writ application denied. See per curiam.
WJC
BJJ
JLW .
JDH
SJC
JTG
JHB

Supreme Court of Louisiana
Bfeptemben2fL 2Q220

L
SecdsaciVWcpaery

Clerk of Court
For the Cqurt

I

t,

I

SUPREME COURT OF LOUISIANA

No. 20-KH-0047
STATE OF LOUISIANA
v.
NOLAN C. TURNER, III

ON SUPERVISORY WRITS TO THE FIRST
JUDICIAL DISTRICT COURT, PARISH OF CADDO

PER CURIAM:
Denied. The application was not timely filed in the district court, and
applicant fails to carry his burden to show that an exception applies. La.C.Cr.P. art.
930.8; State ex rel. Glover v. State, 93-2330 (La. 9/5/95), 660 So.2d 1189.
Applicant has now fully litigated two applications for post-conviction relief
in state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana
post-conviction procedure envisions the filing of a second or successive
application only under the narrow circumstances provided in La.C.Cr.P. art. 930.4
and within the limitations period as set out in La.C.Cr.P. art. 930.8. Notably, the
legislature in 2013 La. Acts 251 amended that article to make the procedural bars
against successive filings mandatory. Applicant's claims have now been fully
litigated in accord with La.C.Cr.P. art. 930.6, and this denial is final. Hereafter,
unless he can show that one of the narrow exceptions authorizing the filing of a
successive application applies, applicant has exhausted his right to state collateral
review. The district court is ordered to record a minute entry consistent with this
per curiam.

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
Katherine Clark Dorroh
Judge, 1st JDC
. 501 Texas Street
Shreveport, LA 71101

Richard Sol Feinberg
Assistant District Attorney
501 Texas St., 5th Floor
Shreveport, LA 71101

Nolan Turner III
LA State Prison
Cypress - 2
Angola, LA 70712

James Edward Stewart, Sr.
District Attorney
501 Texas Street
Shreveport, LA 71101
(

1 Mike Spence
Clerk of Court, Caddo Parish
501 Texas Street, Room 103
Shreveport, LA 71101

NOTICE OF JUDGMENT AND
CERTIFICATE OF MAILING
December 5,2019
DOCKET Number: KH 19-53381
STATE OF LOUISIANA
VERSUS
NOLAN C. TURNER, III
NOTICE IS HEREBY GIVEN that the attached order was rendered this date and a copy was mailed to
the trial judge, the trial court clerk, all counsel of record and all parties not represented by counsel as
listed above.
\
FOR THE COURT

Clerk of Court

STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
No. 53,381-KH

C

STATE OF LOUISIANA
VERSUS
NOLAN C. TURNER, III
FILED: 10/18/19
RECEIVED: PM 10/15/19
On application of Nolan C. Turner, III for POST CONVICTION RELIEF in No.
203,173 on the docket of the First Judicial District, Parish of CADDO, Judge
Katherine Clark Dorroh.
Counsel for:
Nolan C. Turner, III

Pro se

Counsel for:
State of Louisiana

James Edward Stewart, Sr.
Richard Sol Feinberg

' Before PITMAN, GARRETT, and STONE, JJ.

WRIT DENIED.
Applicant Nolan C. Turner, III seeks supervisory review of the trial court’s
denial of his application for post-conviction relief. On the showing made, this writ
is denied. La. C. Cr. P. art. 930.2.
Shreveport, Louisiana, this

G

2019.

day of

■7$?FILED:

Bodoraod Rind

.20

A TRUE COPY. Attest

i

^ - 2a -n

NUMBER: 203173; SECTION 1

STATE OF LOUISIAN.

r "SEP 1 9 2019
s6do parish DEPury (Ji.erkFIRST

JUDICIAL DISTRICT COURT

VERSUS

NOLAN C. TURNER, III

CADDO PARISH, LOUISIANA
RULING

Petitioner was found guilty of First Degree Murder on May 21, 2002 by a
twelve-person jury. A sentencing hearing was conducted on May 30, 2002, after the
guilt phase, resulting in a recommendation of life imprisonment by a unanimous
jury. A motion for a post-verdict judgment of acquittal and a motion for new trial
were filed on June 7, 2002, which were denied. Petitioner was sentenced on June
17, 2002, by the Honorable Judge Leon Emanuel to life imprisonment at hard labor
without benefit of probation, parole, or suspension of sentence.
Petitioner filed a timely motion for appeal with the Second Circuit Court of
appeal, who affirmed the conviction and sentence on October 29, 2003. Petitioner
applied for writs to the Louisiana Supreme court, which were denied. State v.
Turner, 37, 162 (La. App. 2 Cir. 2003), 859 So.2d 911, writ denied, 2003-3400 (La.
2004), 870 So.2d 347. Petitioner’s first Application for Post-Conviction Relief was
filed on February 9, 2005, and denied October 19, 2005. Petitioner filed petition for
habeas corpus with the United States District Court, Western District, Shreveport
Division, which was denied on August 31, 2009. Next, he filed a petition for a writ of
certiorari with the United States Court of Appeal, Fifth Circuit, which was denied.
He then filed a petition for a writ of certiorari with the United States Supreme
Court, which was denied on October 4, 2010. Petitioner then filed this instant
Application on May 16, 2019. In his second Application for Post-Conviction Relief,
Petitioner makes the following claim:

Page 1 of 4

1. His trial counsel conceded his guilt to Second Degree Murder over his
express objection in violation of Article 1, §13 of the Louisiana Constitution
and the Sixth Amendment to the United States Constitution.
Currently before the Court is Petitioner’s second Application for PostConviction Relief, filed on May 16, 2019. The State filed its Procedural Objections
on August 14, 2019, and asked this Court to dismiss Petitioner’s second Application
as it failed to overcome several procedural objections. For the following reasons, the
State’s Procedural Objections are sustained and Petitioner’s second Application is
DENIED.
Article 930.8 of the Louisiana Code of Criminal Procedure sets forth the time
limitations by which an application for post-conviction relief must be filed.
Specifically, Subsection (A) of Article 930.8 states,
“No application for post-conviction relief, including applications which seek
an out-of-time appeal, shall be considered if it is filed more than two years
after the judgment of conviction and sentence has become final under the
provisions of Article 914 or 922...’’ La. Code Crim. Proc. Art. 930.8(A)
(emphasis added).
In turn, Article 922 states,
“A. Within fourteen days of rendition of the judgment of the supreme court or
any appellate court, in term time or out, a party may apply to the appropriate
court for a rehearing. The court may act upon application at any time.
B. A judgment rendered by the supreme court or other appellate court
becomes final when the delay for applying for a rehearing has expired and no
application therefor has been made.” La. Code Crim. Proc. Art. 922 (emphasis
added).
In other words, if an application is filed more than two years after a judgment of
conviction and sentence has become final under La. Code of Crim. Proc. Articles 914
(stating the method and time for appeal from a trial court judgment), or 922, supra,
it will be denied as untimely. State v. Cotten, 50,747 (La. 2d Cir. 8/10/16), 201 So.
3d 299.
Petitioner’s Application was not filed in a timely fashion, requiring this
Court to dismiss his Application. Petitioner’s conviction became final under Articles
914 and 922 on October 4, 2010. Under Subsection (A) of Article 922, Petitioner had

Page 2 of 4

t

fourteen (14) days from that decision in which to file his application for rehearing
with the Supreme Court of the United States. As he failed to do so, Subsection (B) of
Article 922 rendered his conviction final fourteen days later, or on October 4, 2010.
This means that Petitioner had two years from that date, or until October 4, 2012 to
file his Application for Post-Conviction Relief. Petitioner filed his' Application on
May 16, 2019, more than two years after his conviction became final. Since
Petitioner failed to file his Application in a timely manner, it must be denied.
In addition, Article 930.4 of the Louisiana Code of Criminal Procedure
prohibits the district courts from considering successive applications and motions
for post-conviction relief when such applications are repetitive. La. Code Crim. Proc.
Art. 930.4. Specifically, Subsection D of Article 930.4 states, .
“A successive application shall be dismissed if it fails to raise a new or
different claim.” Louisiana Code Crim. Proc. Art. 930.4 (emphasis added).
The Louisiana State Legislature makes its directive clear: any application for post­
conviction relief that reiterates claims from a previous application for post­
conviction relief will be dismissed without consideration. Id.
Petitioner’s Application must be dismissed pursuant to Article 930.4 of the
Louisiana Code of Criminal Procedure. Petitioner has not raised any new
arguments specifying why there was a violation of Article 1, §13 of the Louisiana
Constitution and the Sixth Amendment of the United States Constitution, but
rather, has alleged the same claim that was asserted in his first Application for
Post-Conviction Relief, filed on February 9, 2005. This Court has already issued a
ruling denying that first Application for Post-Conviction Relief. As this Application
contains the exact same argument and fails to raise any new claim suggesting that
Petitioner’s trial counsel conceded his guilt over his express objection, Article 930.4
of the Louisiana Code of Criminal Procedure requires this Court to dismiss <
Petitioner’s Application.

Page 3 of 4

4 •

Lastly, Article 930.2 of the Louisiana Code of Criminal Procedure requires
that the applicant has the burden of proof. Here, Petitioner did not show that
counsel directly or indirectly conceded his guilt. Since Petitioner did not withstand
his burden of proof, Article 930.2 requires that his Application be denied.
Accordingly, this Application is DENIED. The Clerk of Court is directed to
provide a copy of this Ruling to the District Attorney and Petitioner.
Signed this

2019, in Shreveport, Caddo Parish,

Louisiana.

Honorable Katherine Clark Dorroh
District Judge
First Judicial District Court

ENDORSED FILED
B. WASHINGTON, Deputy Clerk

•SFP 1 9 2019

DISTRIBUTION:

= COPY - ATTEST

Nolan C. Turner III
326872, Cypress—2
Louisiana State Penitentiary
Angola, LA 70712

CADQj

LX

ARI5H DEPUTY CL?;rF

Caddo Parish District Attorney’s Office
501 Texas Street
Shreveport, LA 71101

Page 4 of 4

EXHIBIT 4

NOLAND C. TURNER III

DOCKET No. 203,173 SEC 1

VERSUS

FIRST JUDICIAL DISTRICT

DARREL V ANNOY, WARDEN

CADDO PARISH, LOUISIAN A

Affidavit of David R. McClatchey
Befor .tie, die undersigned Notary, came and appeared David R. McClatchey, a person of
the full age o' majority who having been sworn stated the following:

1.
Affiant is an attorney and counselor at law licensed to practice in the State of Louisiana, the
State of Texas, Federal Court, and before the United States Supreme Court.

2.

Affiant has dedicated his entire legal career to defending the constitutional tights of those
less fortunate by providing quality legal representation to persons who are unable to afford legal
counsel. Affiant fights for all of his clients to prevent the innocent from being wrongly convicted
and the guilty from being overly convicted. Affiant has worked on over 2,000 crimit I cases in 29
years of practir'ng law and not once has he ever been found to be ineffective or indifferent by any
court. Affiant is an Assistant Public Defender for the Caddo Parish District Defende-’s Office and
has been so emnloyed for 28 yeats. Affiant represented Mr. Noland C. Turner III wb .vas charged
with first degree murder.

3.

Affiant was present in court during the closing argument presented by co-cci tsel Michael
Vergis. Mr. Vt-gis did not concede guilt and in fact argued that Mr. Turner was n.>t guilty and
innocent of titis offense.

\

4.

If one mads the entirety of Mr. Vergis’ closing argument, and not just cherry pick one single
paragraph ou: of context, one would realize that the argument was in two parts. In tin first part Mr.

ttacliment

H
IH'i

v r

Vergis argues f' at the offense itself is not even a first degree murder but at best a second degree
murder, so tb.o whoever was involved could not be guilty of first degree murder.
5.
In the

'cond part of Mr. Vergis’ closing argument, Mr. Vergis argues that Mr. Turner is not

guilty and specifically points out some of the exculpatory evidence that was brought nut during the
trial. This inch des one witness who picked out someone other than Mr. Turner from the photo line­
up presented by the police and stated that the subject had a gold tooth which Mr. Turner does not
have. The ph to line-up used by the police was suggestive. Mr. Vergis also pointed out that one
witness referr :ti to as “Little B” could not pick out the person he saw commit the crin e anywhere in
the court room. Mr. Vergis also argued that Mr. Turner had alibi witnesses that placet! him near the
barbershop a' 'he time of the incident. Mr. Vergis specifically stated that Mr. Turner was “not
guilty of the offense.”
6.
In Mr. Vergis’ final remarks to the jury he tells the jury that “you do no' convict the
innocent in order to appease the injured,” specifically referring to Mr. Turner as r.n innocent
man.
7.
During die course of representing Mr. Turner counsel did discuss the plea bargaining
. process witii Mr. Turner. Mr. Turner did not want to pursue die possibility of resolving diis mater
without going to trial and risk receiving die death penalty. It is counsel’s duty and obligation to
assess the evidence of the case and inform client of that assessment even when the c'i int does not
agree with tha,. assessment. It is also die duty and responsibility of counsel to inforir clients of the
plea bargaining process should a client wish to avail them of diat option.

—"'7 ft.

"i

DAVID R. MCCLATCHEY
Thus done and signed before me, notary public, on this

7?- ^ 'Ht

day of August, 2019, in

Shreveport, Caddo Parish, Louisiana.

Page 2 of 2

(

. •

>it.V

Vfe.'

SECOND OR SUBSEQUENT UNIFORM APPLICATION FOR
POSTCONVICTION RELIEF
Please review La. C. Or. P. Arts. 924—930.9 for the correct procedure for filing an application for
post conviction relief. This fonn does not modify the law or requirements as staled in those articles.
For the Time Limitations for filing this application, please see Louisiana Code of Criminal Procedure
(La C. Cr. P.) Art. 930.8(A), which states in part that “No application for post-conviction relief,
including applications which seek an out-of-time -appeal, shall be considered if it is filed more than
two years after the judgment of conviction and sentence has become final under the provisions of
Article 914 cr 922 ..."
SECOND OR SUBSEQUENT UNIFORM APPLICATION INSTRUCTIONS—READ
C AREFULLY
If this is not your First Application for post conviction relief, please carefully review' all of the
following instructions:
1.

In accordance with La. C. Cr. P. Art. 930.4(D) or (E), you are entitled to file one application
for postconviction relief after your conviction has become final and within the time limits
provided in La. C. Cr. P. Art. 930.8.

2.

If you are attempting to file a second or subsequent application, you must use this form and
justify your right to file a second or subsequent application in accordance with La C, Cr. P.
Arts. 930.4 and 930.8. If you fail to use this form, your application may be automatically
dismissed by the Court.
GENERAL INSTRUCTIONS—READ CAREFULLY

In addition to the above instructions, please carefully review' all of the following instructions:
1.

You must use this form or the District Court will not consider your application. This
could affect your ability to seek relief in accordance with the time limits established in La. C.
Cr. P, Art.930.8. Therefore, you must use (iris form or justify your failure to do so within the
'postconviction time limits.

2.

This application must, be clearly written or typed, signed by you or your attorney, and sworn to
before a notary public or institutional officer authorized to administer an oath. Any false
statement of a material fact may serve as the basis for criminal prosecution. Answer questions
concisely in the proper space on the form. You may attach additional pages stating the-facts
that support your claims for relief No lengthy citations of authorities or legal atgum ents are
necessary.

3.

When the application is completed, you must file the original application in the District
Court for the Parish in which you were convicted and sentenced, and you must also send a
copy to die Stale.

4.

You must raise all claims for relief arising out of a single trial or guilty plea in one application.

5.

You are only entitled to file an application for postconviction relief to challenge a habitual
offender ad judication or sentence within very limited circumstances. In most cases, you
can only challenge a habitual offender adjudication or sentence in appeal.
REQUIRED ATTACHMENTS

A copy of the Louisiana Uniform Commitment Order of conviction and sentence must be attached
to the application (if it is available), or the application must allege that it is unavailable.
You mnst attach a copy of any judgment by any court regarding prior postconviction applications,
or this application may be dismissed by the district, court. If you are unable to provide any judgments,
please explain why.
Date of this Application: May 13, 2019

Name of Applicant:

Nolan C. Turner III

DOC Number:

326872

Place of Confinement:

La State Penitentiary

District Court Case
Number:

203,1.73

Pari sir of Conviction;

Caddo

Attachment

M

Name of Trial Judge:

Honorable Leon Emanuel
La. R.S. 14:30—first degree murder

OfFense(s) for which you were convicted:

Do any of the convictions involves a sex offense or a human trafficking related offense where the
victim was aminor under the age of eighteen years (see La R. S. 46:1842(1.1) and 46:1844(WX2))?
No [x]
[Check One]
Yes []
Guilty Plea [] Trial bv Jury [x]

Date of Conviction:

July 8,1999

Conviction by:
[Check One]

Trial by Judge f ]

Date of Sentencing:

July 8,1999

Sentence

Life without benefits

Name of Counsel who represented you at the time Public Defender's: Mr. McCiatchey, Mr. Goins,
of trial, sentence ami / or conviction:
and Mr. Vergis
No [x]

YesD

Multiple Offender Proceeding: [Chock One]

If yes, answer both of the following questions:
Pled [] Adjudicated to be aMultiple Offender.[]
Result of Proceeding: [Check One]

Adjudicated No Bill Q
N/A

Sentence on Multiple Offender Bill:

Name of Counsel who represented you on appeal: Peggy J. Sullivan
Appeal of conviction and
sentence: [Check One]

Yes [x]

Non

Appellate Case #:

37,162-K.A

Appeal of Multiple Bill:
[Check One]

Yes[]

Non

Appellate Case #:

N/A

Writ to Louisiana. Supreme
Yes [x]
Court: [Check One]

no n

Supreme Court Case #: 2003-KO-3400

Action by Supreme Court:
[Check if Applicable]

Granted []

Denied [x]

Date ofAction

March 26,2004

Rehear ing to Supreme
Court: [Check if
Applicable]

Granted j]

Denied [] .

Date ofAction

N/A

PRIOR APPLICATIONS INSTRUCHONS—READ CAREFULLY
| Please provide a list of all prior applications for poatconviction relief filed by you or on your behalf in
connection with the judgment, of convid ton and sentence challenged in this application. Ifyou have
filed more than two prior applications, provide the information for each additional application on a
separate sheet of paper.
Parish of Conviction:

District Court Case Number 203,173

Caddo

Dale of Filing: February 9, 2005 Is this the same case challenged in this application? Y«[x]NoD
[Check One]
Claims
Raised;

1. Ineffective assistance of trial counsel.

Was relief granted or denied? [Chock One] Yes [j No[x] Date of Disposition:
Did you receive ah evidentiary
Yes [] No [x]
hearing? [Check One]
Which Circuit? [Check One]
Sought writ to
Louisiana Supreme
Court? [Check One]

Did you file a writ to the
Court of Appeal? [Check
One]

![] 2[x] 3[] 4[] 5Q Appellate Case#:

Supreme Court Case #:
Granted |] Denied [x]
Not Sought []
Date of Ruling

Page 2 of4

October 19,2005
Yes [x]No 0
41016-KH
2006-KII-0818
October 27,2006

CLAIMS FOR RELIEF INSTRUCTIONS—READ CAREFULLY
You must include in this application all allowable claims relating to this conviction. If you do not,
you may be barred from presenting additional, claims at a latei' date. See La. C. CV. P. Art. 930.4. You
must state facts upon which your claims tune based Do not just set out conclusions.
Please refer to La. C. Cr. P. Art. 930.3 (Grounds), which reads:
“If the petitioner is in custody after sentence for conviction for ah offense, relief shal l be
granted only on the following grounds:
(1) The conviction was obtained in violation of the constitution ofthe United States or the
state of Louisiana;
(2) The court exceeded its jurisdicti on;
(3) the conviction or sentence subjected him to double jeopardy;
(4) The limitations on the institution of prosecution had expired;
(5) The statute creating the offense for which he was convicted and sentenced is
unconstitutional;
or
(6) The conviction or sentence constitute the ex post facto application of law in violation of the
constitution of the United States or the state of Louisiana.
(7) Hie results of DNA testing performed pursuant to an application granted under Article
926.1 proves by clear and convincing evidence that the petitioner is factually innocent of the
crime for which he was convicted.”
Using a separate sheet of paper, provide the following information as it relates to claims
available under La. C. Cr. P. Art. 9311.3.
For each claim:

'Rimer’s trial counsel conceded au.i.lt over his express objection. See
Memorandum in Summi t. Turner does not have a copy of the Uniform
Commitment Order at the time: however, he is in the process of obtaining it mid.
with the Court’s permission, will supplement this filing with it. at a later date.

(A) You must state your claim, the p ound ou which it is based under La. C. Cr. P. Ait 930.3, and the
facts that support your claim.
(B) Iflhere are witnesses who could testify in support of your claim, you must list their names and
current addresses. If you cannot do so, explain why.
(C) If you failed to raise this claim in the trial court prior to conviction or ou appeal, you must explain
why. This is your opportunity to state reasons for your failure before the court considers dismissing
the application in accordance with La. C. Cr. P. Art. 930.4(F).
In the following space, provide a brief summary of the reasons why you are legally entitled to file a
second or subsequent application. If you fail to justify your right to file a second or subsequent
application in accordance with La. C. Cr. P. Arts. 930.4 and 930.8, your application may' be
automatically dismissed
A new rule of law was handed down by the United States and Louisiana Supreme Court’s concerning
an attorney conceding guilt over a client’s express objection:
On May L4, 2018. in McCoy v. Louisiana, .138 S.Ct. 1.500 (2018), the United States Supreme Court
held that atrial counsel cannot concede guilt over a client’s express objection.
On September 7, 2018, in Sate u Horn, 2016-0559 (La 9/7/18), — So.3d —, 2018 WL 4279696, the
Louisiana Supreme adopted the holding of the United States Supreme Court and also held that a trial
counsel cannot concede guilt over the client’s express objection.
Both rulings have settled that it is not amaiter of trial strategy for a counsel to concede guilt;
moreover, both Courts have made it clear that this claim is not. governed by ineffective-assistance-otcounsel jurisprudence because, although it is a structural error that defies harmless error analysis, it
concerns a client’s autonomy and not an attorney’s eomjietence. Please see Memorandum in Support
Wherefore, Applicant prey's that the Court grant Applicant relief to which he / she may' be entitled.
.1.3 / Mav /2019

Page 3 of 4

[Signature of Applicant or Applicant’s Attorney]

[Day/Month / Year]

AFFIDAVIT
STATE OF LOUISIANA
PARISH OF WEST FELICIANA
Nolan C. Turner IIL [Name of Applicant / Attorney], being first duly sworn say’s that he / she has read the
application for postconviction relief and swears or affirms (hat all ofthe information therein is true and correct

\v\ o\
SWORN TO AND SUBSCRIBED before
2019.
[Signature of Applicant or Applicant’s Attorney] me this____ day of

NOTARY or person authorized to administer oath

Case Name:

Case Number

JUDGMENT
[May be used by the Coiirt in lieu of or in
addition to written reasons]

Considering the foregoing Application for Postconviction Relief, this Honorable Court hereby:
DENIES this application in accordance with La. C. Cr. P. Art
926(E) [j

928 []

929 [J

930.4 f]

or 930.8 [], or

ORDERS that the Applicant show cause in writing on or before the...... day of
application should not be dismissed in accordance with La. C. Cr. P. Art
or 930.8 [], or
930.4 []
929 []
926(E) []
928 []
ORDERS Ihal the State be required to file a response to tins application on or before the
20

Signed in

.. Louisiana, tills___ day of

.,20

JUDGE

Page 4 of4

20___ why the

day of

IN THE
FIRST JUDICIAL DISTRICT COURT
PARISH OF CADDO

NUMBER: 203, 173. DIVISION “B”

NOLAN C. TURNER III
Petitioner-Appellant
VS.
DARREL VANNOY, Warden
Louisiana State Penitentiary
Respondent-Appellee

MEMORANDUM IN SUPPORT OF SECOND OR SUBSEQUENT
APPLICATION FOR POST-CONVICTION RELIEF

TITLE XXXI-A OF THE
LOUISI ANA CODE OF CRIMINAL PROCEDURE
PETITIONER REQUESTS AN EVIDENTIARY HEARING

RESPECTFULLY SUBMITTED:

NOLAN C. TURNE R III
326872, CYPRESS—2
LOU IS! AN A STATE PENI TENT! A RY
ANGOLA, LA 7071.2

TABLE OF CONTENTS
PAGE
Second or Subsequent. Uniform Application for Post-Conviction Relief
Cover Page
u

Table of Contents

.m

Table of Authorities,
Statement of Jurisdiction.....

1

Pertinent Information Under La. C. Cr. P. Art. 930.3 & 930.8

1.

Statement of the Case

1.

Claim Presented,,,,

.2

1.

Turner’s trial counsel conceded guilt, over his explicit objection in
violation of Article L § 13 of the Louisiana Constitution and the
Sixth Amendment to the United States Constitution.

Conclusion

5

Affidavit/Certificate of Service

6

Attachments
A,

October 19, 2005, Trial Court Judgment Denying Original Application for
Post-Conviction Relief

B.

March 24, 2005, Judgment of the Appellate Court Denying Application lor
Supervisory Writ after Denial of Application for Post-Conviction Relief

C.

October 27, 2000, Judgment of Hie Louisiana Supreme Court. Denying
Application for Writ of Certiorari after Denial of Application for PostConviction Relief

D.

Cited Record Citations

E,

Motion for Appointment of Counsel

F.

Motion for Evidentiary Hearing

G.

Motion to Compel Answer

-ii;

TABLE OF AUTHORITIES
PAGE
United States Constitution
passim

Sixth Amendment,
Louisiana Constitution of 1974

i, 2

Article I, § 13

1

Article V, § 16.
Statutes
La. C Cr. P. art. 925

I

La. C. Cr. P. art. 930.3

1

La. C. Cr. P. art. 930.4

1,2

La. C. Cr. P. art. 930.8

1, 2

Federal Case
McCoy v. Louisiana, 138 S.Ct. 1500 (U.S. La. 2018)

passim

State Cases
Stale v. Horn, 2010-0559 (La. 9/7/18), 2018 WL 4279696

passim

State v. McCoy, 2014-1449 (La. 8/31/18), 2018 WL 4275778...

5

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052. (1984).

3

United States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984)

,3

-lii-

MAY IT PLEASE THE COURT:
NOW I NTO COURT comes pro se petitioner Nolan C. Turner III (“Turner'')
respectfully submitting the following in support of his Second or Subsequent
Application for Post Conviction Relief (“SAPCR”).
STATEMENT OF JURISDICTION
Jurisdiction, is vested in this honorable Court, by virtue of Article V, § 16 of
. the Louisiana Constitution of 1974 and La. C. Cr. P. Art. 925.
PERTINENT INFORMATION UNDER. LA. C. CR. P. ART’S. 9:10.3 & 930.8
(A)

Turner was deprived of his right, to counsel, in violation of Article I„ § 13 of
the Louisiana Constitution and the Sixth Amendment to the United States
Constitution.

(B)

This claim was initially raised as an ineffective-assistanee-of-counsel claim
during Turner's original collateral attack, of his conviction and sentence. It
is being resubmitted in light of the client autonomy rule announced in
McCoy v. Louisiana, 138 S.Ct. 1500 (U.S. La. 2018) and Stale v. Horn,
2016-0559 (La. 9/7/18), 2018 WL 4279696, under the exception provided
for in La. C. Cr. P. art. 930.8(A)(2).
STATEMENT OF THE CASE
Turner was charged, tried, convicted and sentenced to life imprisonment by

twelve-member jury for first degree murder. Turner tost his direct appeal and the
Louisiana Supreme Court denied discretionary review. Turner timely filed his
Original Application for Post-Conviction Relief (“APCR”) with the Court raising
one claim: ineffective assistance of counsel. The Court summarily denied
Turner’s APCR.. His writ applications to the. Court of Appeal, Second Circuit and
the Louisiana Supreme Court, were unsuccessful. Turner also unsuccessfully
sought federal, habeas corpus relief.
The subject of this SAPCR. is the May 14, 2018, decision of the United
States Supreme Court which held that a criminal defendant has the right to insist
his attorney refrain from admitting guilt because some decisions, like whether or
not to plead guilty, are for the client to make.1 Also the September 7, 2018,
decision of the Louisiana Supreme Court, that echoed the sentiments of the
:See McCoy v. Louisiana, 138 S.Ct., at 1508.
-1■\

McCoy Court.2 The Horn Court also decided the holding in McCoy> is not
restricted to “cases where a defendant maintains his absolute innocence to any
crime (because] McCoy is broadly written and focuses on a defendant’s autonomy
to choose tlie objective of his defense.”5
In open court, Turner said:
I’m being prosecuted in a case in which the State is asking for the
death penalty. And the only evidence against, the defendant, which is
me. is eyewitness testimony. And I contend that the eyewitnesses are
unreliable. I also contend that tire photographic lineup was
suggestive and tainted and f] irreversibly poisoned the minds of the
witnesses....I also intend to pursue an alibi defense therefore
cl aiming my innocence . ’
Turner’s trial counsel (“Mr. Vergts”) on the other hand, conceded guilt to
second degree murder over Turner’s express objection and defense. Accordingly,
this second application for post-conviction relief with memorandum in support
follows in a timely manner and is not barred by La. C Cr. P art. 930.4 or La. C.
Cr. P. art. 930.8.
CLAIM PRESENTED
1.

Turner’s trial counsel conceded guiit over his express objection in
violation of Article l, § 13 of the Louisiana Constitution and the
Sixth Amendment to the United States Constitution.
According to the United States Supreme Court, the decision whether to

plead guilty or not rests solely in the discretion of a criminal defendant and not
his attorney.5 The McCoy Court held that:
[A] defendant has the right, to insist that counsel refrain from
admitting guilt, even when counsel’s experienced-based view is that
confessing guilt offers the defendant the best chance to avoid the
death penalty. Guaranteeing a defendant the right “to have tire
Assistance of counsel for his defence,” the Sixth Amendment so
demands. With individual liberty—and, in capital cases, life—at.
stake, it is the defendant’s prerogative, not counsel’s, to decide on
(he objective of his defense: to admit guilt in the hope of gaining
2Statc v. Horn, 2016-0559 (La. 9/7/18), 2018 WL 427969.
'1(2., at **5.
<IP,. pp 134-35 (emphasis added).
iMcCcy v. Louisiana, 138 S.Ct. 1500 (2018)
-2-

mercy at the sentencing stage, or to maintain his innocence, leaving
it to the State to prove his guilt beyond a reasonable doubt.15
Accordingly, the Louisiana Supreme Court.—after being reversed by the
United States Supreme Court—concluded that:
... there is no question that, a criminal defendant’s decision whether
to concede guilt implicates fundamental constitutional rights and the
right to exercise that, decision is protected under the Sixth
Amendment. Moreover, a violation of this Sixth Amendment right is
a structural error, and not subject to harmless error review.' [Thus] ...
[a] criminal defendant’s express refusal to concede guilt is
safeguarded by core constitutional protections.7
Because a criminal defendant does not surrender complete control of his
defense to his counsel, Turner was deprived of his Sixth Amendment right to
counsel when Mr. Vergis conceded guilt to second degree murder.* It is now
settled that the Sixth Amendment, grants an accused the right to make his own
defense and when it “speaks of the 'assistance’ of counsel, [that] assistant,
however expert., is still an assistant.”*
Mr. Vergis, along with other co-counsels, tried to convince Turner to plead
guilty to second degree murder. Turner, however, refused. The record of this case
is clear, guilt was conceded over Turner’s objection. In fact, Turner exhausted the
issue all the way to the United States Supreme Court under Strickland v.
Washington, and United States r. Cronic, and their progeny.11’ Again, this was
before the High Court settled this issue with, the decision handed down in McCoy
v. Louisiana. Contrary to law, Mr. Vergis changed Turner’s defense and conceded

sMcCay v. Louisiana, 138 S.Ct., at 1505.
1 State v. Horn, 2018 WL 4279696 at **6, **7.
sSoei/cCoy v. Louisiana, 138 S.Ct., at 1508.
9!d.
lQStrickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984);
United States v. Cronic, 466 IJ.S. 648, 652,104 S.Ct. 2039, 2046, 80 L.Ed.2d 657 (1984).
-3-

guilt without, his consent. Mr. Vergis argued second degree murder ir< opposition
to Turner 's adamant plea of not guilty.11
In his closing statement, Mr. Vergis told the jury:
Now, the question is, we ha ve someone who is now deceased, that
makes it murder. I believe. In this case, it’s second degree murder,
not first. And here’s why: In order to have first degree murder you
have to show the specific intent to kill. It was the outcome they
wanted. They went, there with the intent to kill people. They wanted
to do this, but that’s not what, happened. The robbery was taking
place, things were going fine and then a gimfight started and at that
point, there was no intent, to kill, there was intent, to get: out. That, is
general intent. Yes, he should have known better, but you sure
weren’t, trying to kill anyone. You were going to be shot, or be shot
[sic]. And that doesn’t justify it.. It’s still wrong, l't Is still murder,
but it’s not. first, degree murder; it is clearly second degree murder.
It is general intent.
Mr. McClatehey during his long voir dire explained that, if you
specifically intend to do this, it is going to be specific intent. Now, if
this was something going to be a likely consequence of your actions,
it is general intent. It wasn’t intended. All right. Now that we have
established that it’s a second degree murder and what took place,
let’s move on to the some of the evidence which has been used.12
Mr, Vergis’s concession was a violation of Turner’s right l o insist on his
innocence which robbed him of his right lo counsel—the right to the effecti ve
assistance of counsel to aid him in presenting his defense. As stated above,
Turner’s defense was his actual innocence and an alibi witness who was willing to
testify that he was somewhere other than the scene''of the crime. Counsel’s
strategy of conceding guilt, over Turner’s objection, to a lesser charge of seconddegree murder during closing argument was not strategy but. a violation of
Tinner’s autonomy right to decide what, his defense should be.
Turner informed the trial judge (Judge Leon Emanuel) of his counsels
representation of him and that he believed they were inadequately representing
his cause. He specifically stressed to the trial court that his attorneys were not
consulting with him and no defense on his behalf was being discussed. Turner’s

uSee R. p. 135 (“I also intend to pursue an alibi defense therefore claiming my
innocence.”)
12R. p. 35-36 (emphasis added).
-4-

plea of not guilty at arraignment was only one way he informed his attorneys of
his innocence concerning the instant offense. Turner further informed the trial
court:
My appointed counsel here thinks Pm guilty and wants me to plead
guilty against my will. They’re also trying to get me to plead to a
crime I’m innocent of. I mean. Your Honor, this is my life here we’re
talking about and I will not let these two lawyers, Mr. Goins and Mr.
McClatchey, throw my life down the drain based on them assuming
the fact that I’m guilty and that they are overworked with an
abundance of other cases to bear. I mean, to my understanding
basically they don't even have a defense on their mind or a defense
period. They 're using the death penalty as a scare tactic to get me to
take a deal....I mean, the only tiling that they issued or told me, you
know what J ’m saying, is to plead guilty or they’re going to plead me
guilty; if not I’m going to be found guilty and get the death penalty. 1
mean, Mr. McClatchey came to see me Friday, May 10, 2002, and
told me to plead guilty. He hasn’t talked to rne about a trial strategy
or defense strategy. I mean, I have no confidence in Mr. Goins or
McClatchey that, they will defend me to the best of their ability as
guaranteed under the Sixth Amendment.
Turner has to be honest and inform the Court that some of his documents
have been misplaced; therefore, he is asking the Court to grant him some
additional time‘to produce the documents he is having trouble locating and
supplement the record at a time determined by the Court. Being pressed for time
to get the instantSAPCR filed. Turner wanted to get everything he had into the
hands of a classification officer before May 14, 2019.
Contrary to clearly established law, as determined by the United States
Supreme Court, Mr. Vergis, in concluding his argument, said; “We have
established that it a [sic] second degree murder and the State has to prove beyond
a reasonable doubt, that Nolan Turner committed this act. Now, t.he question is, if
Nolan wasn’t there, then where was he?”13 Counsel alleviated the State’s burden
and established for the jury that Turner was guilty of second degree murder.
Accordingly, Turner’s conviction and sentence must be vacated and his case
remanded “for further proceedings consistent with McCoy r. Louisiana:’111
!3R, p. 44 (emphasis added).
“State v. McCoy, 2014-1449 (La. 8/31/18), 2018 WL 425778.
-5-

CONCLUSION
The issue to he decided by the Court is Turner’s autonomy arid not Mr.
Vergis’a competence; therefore, ineffeetive-assistance-of-eounsel jurisprudence is
not applicable here.Moreover, Turner is entitled to post-conviction relief
because the violation of a defendant’s Sixth Amendment-secured autonomy is a
structural error and is not amenable to harmless error analysis.16
Respectf'u!.!.y submitted,

&
Nolan C. Turner III
326827, Cypress—2
Louisiana State Penitentiary
Angola, LA 70712

AFF1D AVIIVCERTIFI CATE OF SERVICE
I do hereby certify that the foregoing is true to the best of my knowledge
and belief and has been served upon:
Opposing Counsel:
Honorable James Edward Stewart Sr., District Attorney
Caddo Parish Court House
501 Texas Street Fifth Floor
Shreveport, LA 7110.1-5408
By placing a copy of same in a properly addressed envelope into the hands of the
Classification Officer assigned to my unit along with a Withdrawal form made out
to the General Fund, LSP, Angola, LA 70712 for the cost, of postage and a
properly filled out. Inmate’s Request for Indigent/Legal Mail form, receiving
receipt for same in accordance with the institution’s rules and procedures for the
sending of legal mail.
Done this 13th day of May, 2019.

lSSratc v. Horn, **6.
l*ld.
-6-

NOLAN C TURNER III

DOCKET NO: 203, 1.73; DIVISION “B”

VERSUS

FIRST JUDICIAL DISTRICT COURT

DARREL VANNOY, Warden
Louisiana State Penitentiary

CADDO PARISH LOUISIANA

MOTION FOR. APPOINTMENT OF COUNSEL
NOW INTO. COURT comes pro se petitioner Nolan C. 'Rimer III
(“Turner”) who respectfully submits that he is unlearned and unskilled with
respect to legal matters-, having had no formal training, is not an attorney and
does not have any practical experience in such matters.
Only with the aid of counsel will Turner be able to more folly develop the,
law and facts before this Court during the upcoming evidentiary hearing
regarding his claim to help him ensure that his rights are protected.
Turner requests that counsel be appointed to represent him so that he may
further develop his substantial claim, particularly in light of Martinez v. Ryan,
132 S.Ct. 1309,182 L.Ed.2d 272 (2012), and Trevino v. Thakr, 133 S.Ct. 1.911,
185 L.Ed.2d 1044 (201.3).
Signed this 13th day of May, 2019.
Respectfully submitted,

ft. J
7)
Nolan C. Turner III
326872, Cypress—2
Louisiana State Penitentiary
Angola, LA 70712

*

■

NOLAN C. TURNER III

DOCKET NO: 20?, 173; DI VISION “B"

VERSUS

FIRST JUDICIAL DISTRICT COURT

DARREL VANNOY, Warden
Louisiana State Penitentiary

CADDO PARISH LOUISIANA

ORDER
THE ABOVE AND FOREGOING MOTION CONSIDERED:
, Attorney at Law,

IT IS HEREBY ORDERED that

is hereby appointed to represent Nolan C. Turner III during lire evidentiary
proceedings regarding his Second Application for Post-Conviction Relict, and
that said attorney shall file any and all required pre-hearing motions and filings
on behalf of Turner for the pur poses of protecting his rights during any upcoming
proceedings in litis matter, including but not limited to, any and all necessary
supplemental claims for relief, Motion for Funds for the Hiring of Ineffective
Assistance of Counsel Experts, Motion for Funds to Hire Forensic Experts,
Motion lor Funds to Hire Mental Health Experts, Motion for Production of any
and all Necessary Records, Motion to Preserve the Evidence, etc.
day of

Shreveport, Louisiana tins

JUDGE—FIRST JUDICIAL DISTRICT COURT

2

,2019.

*

NOLAN C. TURNER III

DOCKET NO: 203, 173; DIVISION “B”

VERSUS

FIRST JUDICIAL DISTRICT COURT

DARREL VANNOY, Warden

CADDO PARISH LOUISIANA

Louisiana State Penitentiary
MOTION FOR. EVIDENTIARY HEARING
NOW INTO COURT comes pro se petitioner Nolan C. Turner III who
respectfully avers that the claim presented in his second application for postconviction relief, if established, would entitle him to post conviction relief and
respectfully moves the Court to hold an Evidentiar y Hearing where the facts arid
law may be more fully developed to aid the Court in rendering a decision
regarding Turner’s claim for relief.
Respectfully submitted this 13th day of May, 2019.

L)

Nolan C. Turner III
326872, Cypress—2
Louisiana State Penitentiary
Angola, LA 70712

fs

NOLAN C. TURNER ill

DOCKET NO: 203, 173; DI VISION “B"

VERSUS

FIRS T JUDICIAL DISTRICT COURT

DARREL VANNOY, Warden
Louisiana State Penitentiary

CADDO PARISH LOUISIANA

ORDER
THE ABOVE AND FOREGOING MOTION CONSIDERED:
IT IS HEREBY ORDERED that Nolan C. Turner Ill be allowed to
supplement hts Memorandum in Support of his Second Application for Post
Conviction Relief as necessary.
IT IS HEREBY ORDERED that an evidentiary hearing be held on the
a.m./p.tn. whereby evidence may be

2019, at

day of

introduced and the foots and law may be more fully developed to aid this Court, in
rendering a just, decision regarding Turner’s claim for relief.
IT IS HEREBY ORDERED that Warden Darrel Vannoy, Louisiana State
Penitentiary, produce Petitioner, Nolan C. Turner III, #320872, currently confined
under his custody and control, before the honorable First Judicial District Court,
Parish of Caddo, on the

,, 2019, as previously ordered

day of

by this Court.
Shreveport, Louisiana this

day of

2019.

JUDGE—FIRST JUDICIAL DISTRICT COURT

2
f

i

*

f

NOLAN C. TURNER III

DOCKET NO: 203, .1.73; DIVISION “B”

VERSUS

22ND JUDICI AL DISTRICT COURT

DARREL VANNOY, Warden
Louisiana State Penitentiary

CADDO PARISH LOUISIANA.

MOTION TO COMPEL ANSWER
NOW INTO COURT comes pro se petitioner Nolan C. Turner III who
respectfully avers that the claim presented in second application for postconviction. relief, if established, would entitle him to post conviction relief, and
respectfully moves the Court to require the District Attorney for the Parish of
Caddo, State of Louisiana, to file an answer in opposition within the period
specified under La. C. Cr. P. art. 927(A).
Respectfully submitted this 13th day of May, 2019.

^ A Eft
Nolan C. Turner III
326872, Cypress—2
Louisiana State Penitentiary
Angola, LA 70712

/

r;

ij

I
1
NOLAN C. TURNER III

DOCKET NO: 203, 173; DIVISION “B”

VERSUS

FIRST JUDICIAL DISTRICT COURT

DARREL VAN NO Y, Warden
Louisiana State Penitentiary

CADDO PARISH LOUISIANA

ORDER
THE ABOVE AND FOREGOING MOTION CONSIDERED:
IT IS HEREBY ORDERED that the District A ttorney for the Parish of
Caddo, State of Louisiana, file an answer to the foregoing Application for PostConviction Relief on or before the

day of

Shreveport, Louisiana, this____day of

JUDGE—FIR3T JUDICIAL DISTRICT COURT

2

, 2019.
2019.

